<html>
<title> - PAYCHECK PROTECTION PROGRAM: AN EXAMINATION OF LOAN FORGIVENESS, SBA LEGACY SYSTEMS, AND INACCURATE DATA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    PAYCHECK PROTECTION PROGRAM: AN 
  EXAMINATION OF LOAN FORGIVENESS, SBA LEGACY SYSTEMS, AND INACCURATE 
                                  DATA

=======================================================================

                                HEARING

                               BEFORE THE

          SUBCOMMITTEE ON INNOVATION AND WORKFORCE DEVELOPMENT

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                           SEPTEMBER 24, 2020

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 116-094
             Available via the GPO Website: www.govinfo.gov
             
             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-468                       WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
             
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                         KWEISI MFUME, Maryland
                          JUDY CHU, California
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                 Melissa Jung, Majority Staff Director
   Justin Pelletier, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Jason Crow..................................................     1
Hon. Troy Balderson..............................................     3

                                WITNESS

Mr. William Manger, Small Business Administration Chief of Staff, 
  Associate Administrator, Office of Capital Access, Small 
  Business Administration, Washington, DC........................     4

                                APPENDIX

Prepared Statement:
    Mr. William Manger, Small Business Administration Chief of 
      Staff, Associate Administrator, Office of Capital Access, 
      Small Business Administration, Washington, DC..............    22
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.

 
                    PAYCHECK PROTECTION PROGRAM: AN 
  EXAMINATION OF LOAN FORGIVENESS, SBA LEGACY SYSTEMS, AND INACCURATE 
                                  DATA

                              ----------                              


                      THURSDAY, SEPTEMBER 24, 2020

                  House of Representatives,
               Committee on Small Business,
          Subcommittee on Innovation and Workforce 
                                       Development,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2360, Rayburn House Office Building, Hon. Jason Crow 
[chairman of the Subcommittee] presiding.
    Present: Representatives Crow, Finkenauer, Kim, Davids, 
Houlahan, Chabot, Balderson, Hern, Burchett, and Joyce.
    Chairman CROW. Good morning. I call this hearing to order. 
I want to thank everyone for joining us this afternoon for this 
official hybrid hearing.
    I want to make sure to note some important requirements. 
Let me begin by saying that standing House and Committee rules 
and practice will continue to apply during hybrid proceedings. 
All members are reminded that they are expected to adhere to 
these standing rules, including decorum.
    During the covered period, as designated by the Speaker, 
the Committee will operate in accordance with H. Res. 965 and 
the subsequent guidance from the Rules Committee in a manner 
that respects the rights of all members to participate.
    House regulations require members to be visible through a 
video connection throughout the proceeding, so please keep your 
cameras on. Also, please remember to remain muted until you are 
recognized, to minimize background noise. If you have to 
participate in another proceeding, please exit this one and log 
back in later.
    In the event a member encounters technical issues that 
prevent them from being recognized for their questioning, I 
will move to the next available member of the same party and I 
will recognize that member at the next appropriate timeslot, 
provided they have returned to the proceeding.
    For those members physically present in the Committee room 
today, we will also be following the health and safety 
guidelines issued by the attending physician. That includes 
social distancing and especially the use of masks. I urge 
members and staff to wear masks at all times while in the 
hearing room, and I thank you in advance for your commitment to 
a safe environment for all here today.
    I am pleased to be holding this hearing today to discuss 
the technical aspects of the Small Business Administration's 
Paycheck Protection Program and to learn more about the new 
forgiveness portal.
    I would like to thank Mr. William Manger--am I pronouncing 
that right, Mr. Manger?--who serves as SBA's Chief of Staff as 
well as the Associate Administrator for the Office of Capital 
Access for joining us here today.
    Let me begin by saying that the Committee recognizes that 
the SBA had to launch the Paycheck Protection Program quickly 
and disburse funds to small businesses that were in jeopardy of 
closing, due to the coronavirus pandemic. But I am concerned 
that in the rush to roll out the program, some important 
technical controls with the PPP portal were overlooked.
    The system used for PPP was quickly overwhelmed by an 
unprecedented number of applications. The day the portal was 
launched, it went offline for 4 hours, in which lenders could 
not submit borrowers' applications. During the relaunch of the 
portal for the second round of PPP funding, it crashed again.
    I am concerned that SBA is relying on an outdated system to 
process PPP loans. Back in 2014, the Government Accountability 
Office notified the SBA that E-Tran, the electronic loan 
processing system used to process PPP applications, may not be 
able to handle a large influx of loan applications. Now, 6 
years later, SBA is still relying on the E-Tran system. And I 
have to wonder if these issues could have been prevented if SBA 
heeded the warning of our government's watchdog.
    Today I would like to learn more about what Congress can do 
to support SBA's modernization efforts of the loan processing 
systems. I am also concerned that the SBA system lacks critical 
internal controls to ensure data accuracy.
    On July 27, I, along with 28 other Members of Congress, 
sent a letter to Administrator Carranza, detailing issues with 
the data SBA released on July 6. According to one report in The 
Washington Post, an analysis on 4.9 million loans indicated 
that many companies retained far more workers than they employ. 
Another report by the Post estimated that at least 226,000 
small business loans were credited to the wrong congressional 
district.
    Our letter asked the SBA to clarify several data 
categories, such as how the jobs retained figure was 
calculated, how loans were attributed to congressional 
districts and the measures taken to ensure future reports 
contain accurate data. Sadly, we never received a response.
    Turning now to loan forgiveness, I would like to know what 
steps SBA is taking to ensure that the technology issues 
encountered during the PPP loan application period do not occur 
during the forgiveness period. But, most importantly, I would 
like to know what SBA plans to do to make the loan forgiveness 
process easier.
    Small business owners are incredibly resilient and they are 
used to overcoming challenges, but the coronavirus has been a 
crushing blow. And while the PPP has helped them retain key 
employees and make rent and other payments, many are anxious 
that their loans won't be fully forgiven and they will be 
saddled with more debt.
    And the forgiveness forms do little to alleviate those 
concerns. They are complex, confusing, and time-consuming. 
Small businesses do not have the time or resources, in the 
midst of a pandemic, to spend hours on end trying to fill out 
these forms. They are fighting for their survival.
    With that said, I look forward to hearing about these 
important issues.
    I now yield to the Ranking Member, Troy Balderson, for his 
opening statement.
    Mr. BALDERSON. Thank you, Mr. Chairman.
    And thank you to Mr. Manger for coming before us today to 
discuss how your office has handled the past 6 months.
    The early days of this year marked an American economy that 
was performing at historic highs. However, news started to 
emerge from China on a health concern that was identified as a 
new coronavirus. On March 13, President Trump declared a 
national emergency, and soon afterward States and localities 
began civil authority shutdowns of businesses to safeguard the 
health of citizens.
    Congress responded quickly. To prepare for the fast-moving 
crisis, our entire Federal Government quickly worked together, 
in a bipartisan manner, to enact numerous pieces of legislation 
to enable the SBA to respond to the needs of America's small 
business. These new tools that came from the legislation, such 
as the Coronavirus Preparedness and Response Supplemental 
Appropriations Act, the Families First Coronavirus Response 
Act, and the Coronavirus Aid, Relief, and Economic Security 
Act, or CARES.
    As we all know, the CARES Act initiated the landmark 
Paycheck Protection Program, or PPP, that provided small 
businesses partially forgivable low-interest loans to keep 
their employees on the payroll during the pandemic.
    Although the implementation of the program at the agency 
level, both at the SBA and at the Department of Treasury, has 
initiated uneven with changing enrolling guidance, the PPP has 
been a popular assistance program for small businesses across 
the country.
    The program has provided billions of dollars to our 
Nation's smallest firms. Unfortunately, due to a lack of 
consensus, the program lapsed on August 8, with more than $135 
billion still available.
    The Ranking Member of our full Committee, Mr. Chabot, has 
introduced a new piece of legislation, H.R. 8265, that would 
extend the program through the end of the year. I am a 
cosponsor of this bill and was disappointed to see it fail in a 
procedural vote on the House floor yesterday in a party-line 
vote. I, for one, will continue to work with anyone who wants 
to work with me to reopen this lifeline for America's smallest 
firms.
    The topic of today's hearing is of critical importance, as 
we have the chance to hear from the SBA about how their systems 
dealt with the stress of overseeing over 5.2 million PPP loans 
over 4 months. Specifically, I am most interested in hearing 
about how the SBA has implemented the PPP forgiveness process 
in order to reduce the regulatory burden on small firms.
    Mr. Manger, again, thank you for being here with us, and I 
look forward to hearing your testimony and participating in the 
ensuing discussion.
    Mr. Chairman, I yield back.
    Chairman CROW. Thank you, Mr. Balderson.
    If Committee members have an opening statement prepared, we 
would ask that they be submitted for the record.
    I would like to just take a minute to explain the timing 
rules. Each witness gets 5 minutes to testify and each member 
gets 5 minutes for questioning. There is a lighting system to 
assist you. The green light will be on when you begin, and the 
yellow light comes on when you have 1 minute remaining. The red 
light comes on when you are out of time, and we ask that you 
stay within the timeframe to the best of your ability.
    I would like to now introduce our witness, Mr. Manger. Mr. 
Manger currently serves as the Small Business Administration's 
Chief of Staff as well as the Associate Administrator for the 
Office of Capital Access.
    Prior to his SBA appointment, Mr. Manger served as managing 
director at Brock Capital Group, where he advised and supported 
small- to medium-size enterprises in their efforts to raise 
capital and expand their business. Before investment banking, 
he was the associate administrator for field operations at the 
SBA.
    Mr. Manger, we welcome you to the Committee, and you are 
recognized for 5 minutes.

  STATEMENT OF WILLIAM MANGER, SMALL BUSINESS ADMINISTRATION 
  CHIEF OF STAFF, ASSOCIATE ADMINISTRATOR, OFFICE OF CAPITAL 
     ACCESS, SMALL BUSINESS ADMINISTRATION, WASHINGTON, DC

    Mr. MANGER. Thank you, Chairman Crow, Ranking Member 
Balderson, and the members of the Subcommittee. And I also want 
to recognize the Ranking Member of the full Committee, 
Congressman Chabot.
    I appreciate the opportunity to appear before you today and 
to discuss the Paycheck Protection Program. First, let me 
acknowledge the SBA staff and my colleagues in the Office of 
Capital Access for their tireless work over the last 6 months.
    SBA was charged with creating and implementing an 
unprecedented economic relief program at a critical and 
uncertain time in our Nation's economy. Working with Treasury, 
we wrote program rules and launched the PPP within 6 days of 
passage of the CARES Act.
    Since then, the program has reached over 5.2 million small 
businesses with over $525 billion in needed economic aid. I am 
very proud of the work of the SBA staff. This achievement was 
also made possible through a network of almost 5,500 lenders. 
To put that in context, our SBA business loan programs have 
annually around 1,800 active lenders.
    In the 4 months that the PPP was receiving loans, 3,700 new 
lenders were added. Behind that was a great deal of effort to 
enable lender access to our E-Tran system. Our OCA team helped 
provide system accounts for 73,000 new users and handled over 
3.7 million system actions for all lenders.
    During the PPP rollout, to match the number of lenders and 
the anticipated loan volume, SBA made several significant 
investments in our E-Tran system. Working very closely with our 
CIO, we added servers, memory, and capacity at various stages 
in PPP lending.
    In referencing E-Tran, let me also clear up some false 
impressions of the system. At no time did the PPP--at no time 
during the PPP did the system fail or crash. E-Tran is a stable 
system and fully supported by the agency.
    Turning next to the PPP data disclosure, the agency has 
been transparent with data throughout the program. SBA released 
daily lending figures to Congress and the public. We provided 
weekly detailed program overviews as well as two comprehensive 
data disclosures of all PPP loans.
    In comparing this to our 7(a) program, SBA posts lending 
data following each fiscal quarter for a loan volume in the 
tens of thousands. With PPP, in that same timeframe, we 
disclosed loan data for millions of loans.
    With three times the number of lenders and 260 times the 
number of loans, there were some inequities in the first 
release of the data. In response, SBA created a process for 
lenders and borrowers to correct information that they had 
inputted into the system. We also adjusted how the system 
designated ZIP code locations within congressional districts. 
This data will be further refined through the collection of 
information during the loan forgiveness process.
    To receive loan forgiveness, borrowers are responsible for 
submitting a loan forgiveness application and the required 
supporting documentation to their lender. Lenders are then 
responsible for reviewing the documentation and issuing a 
decision to SBA within 60 days of receiving the application.
    Within 90 days of the lender decision and submission to SBA 
and subject to any SBA review of the loan or the loan 
application, SBA will remit the appropriate forgiveness amount 
to the lender, plus any interest accrued through the date of 
payment.
    SBA opened the forgiveness portal on August 10. We released 
three rules and detailed FAQ documents on the process. We 
established a hotline for lender inquiries and conducted a 
stakeholder call with over 10,000 participants at one time. We 
also increased our staffing, with over 1,100 personnel to help 
manage loan forgiveness and reviews.
    Our Capital Access staff spent a great deal of time 
preparing PPP lenders; and while 98 percent of lenders are 
signed up for the forgiveness, we so far have only received 
approximately 2 percent of the applications. While the low 
number might be attributed to the potential for further changes 
by Congress, SBA has been and remains open and ready for 
business.
    Thank you again, Chairman Crow and Ranking Member 
Balderson, for inviting me to testify. I look forward to any 
questions you may have.
    Chairman CROW. Thank you, Mr. Manger.
    I will begin by recognizing myself for 5 minutes.
    Mr. Manger, we sent this letter, me, along with 28 other 
Members, sent the letter to the SBA on July 27th. Why haven't 
we received a response to that letter?
    Mr. MANGER. You know, I would have to look into exactly 
that--I am not familiar with the specific letter--I am not 
familiar with the specific letter you are referencing. I will 
have to look into that and get back to you. We certainly have 
always tried to be as responsive as possible to any inquiries 
from Congress or from any other parties.
    Chairman CROW. Will you commit to me today that you will 
get us a response on that letter?
    Mr. MANGER. Yes, I will.
    Chairman CROW. Okay, thank you.
    I would just like to follow up on one item that you 
mentioned. And I was confused about the E-Tran comment, that 
you said at no time has it failed or crashed, yet it wasn't 
available, right? It went offline to lenders for periods of 
time during the peak periods.
    Can you explain to me or just clarify for me, when you say 
it didn't fail or crash, why wasn't it available? Was there 
something else going on there?
    Mr. MANGER. Honestly, sir, it was available at all times. 
There were periods where it did slow down, but at no time did 
it absolutely cease. There was a period, April 10 into the 
morning of April 12, where we put out a notice that we would be 
taking the system down for some upgrades that I have referenced 
in my opening statement. And so that was a planned takedown of 
the system so we could add--we went from actually five servers 
to eight servers. We made significant increases to the 
technology in the E-Tran system during the rollout of the PPP 
program. So----
    But, to be clear, at no time did the program crash. You 
know, a crash would be related to losing data or corruption in 
the system. That simply did not occur, sir.
    Chairman CROW. Okay. I think this is an area--I am not a 
technical expert so I, you know, can't explain the differences 
between those things, but I think this is an area for us to 
flesh out a little bit more, because I have received a lot of 
reports from business owners in my district of them in the 
queue filling out their application and then the system just 
going down and losing data and things of that nature.
    So there is a disjoint here that I think would be worth for 
us to follow up on and kind of square those reports that, you 
know, many of us heard from our communities with what you were 
seeing at the SBA. So we will follow up with you on that front 
as well.
    Mr. MANGER. Sure.
    Chairman CROW. So, Mr. Manger, the second question or third 
question I have is: Borrowers started reaching out to lenders 
in June to start the forgiveness process. Why did it take the 
SBA so long to put together a comprehensive forgiveness program 
for PPP?
    Mr. MANGER. Well, sir, we wanted to make sure that we were 
weighing the responsibility, the fiscal responsibility that the 
SBA has when we are talking about $525 billion, to make sure 
that those businesses are, indeed, eligible and that, indeed, 
the amount that we are paying out to the lender for the 
forgiveness is the accurate amount.
    So we had to go through quite a lot of review, and we did 
this in consultation with Treasury, to make sure that we took 
everything into consideration that should be addressed, to 
ensure that when we do pay out the forgiveness to the lenders, 
it is the proper amount.
    Chairman CROW. Okay. And I certainly appreciate that fiscal 
prudence. One of the tensions that existed here, however, was a 
lot of these small businesses were literally--many of them are 
literally applying for this program and taking the risk, not 
even knowing what the criteria were going to be and whether 
they would be eligible for it, but, you know, thinking that 
there was a risk they would have to assume that debt in 
advance, and that is a risk they took on.
    So, given that, do you believe that there should be a 
threshold or criteria established where loans should be 
forgiven automatically?
    Mr. MANGER. Sir, I know that there is some legislation that 
is up here on the Hill that addresses that. I would say that is 
for Congress to decide upon. We certainly stand ready to enact 
anything that you all put forward. But at this point in time, 
again, we wanted to make sure that we weighed our fiscal 
responsibility to the taxpayer with, again, integrity of the 
program. And so we have developed, you know, the forgiveness 
platform that we have to ensure that.
    Chairman CROW. And I will push back a little bit on that, 
because we left it to you all to develop the criteria for 
forgiveness. So I am asking you, you know, in your opinion as 
one of the top SBA administrators, you know, running the 
program, do you believe, which we have seen now and given the 
uncertainty that many of those businesses had when they were 
applying for the program, that for ease of use and for 
predictability that we should establish criteria for automatic 
forgiveness?
    Mr. MANGER. Yeah. Sir, I will echo what Secretary Mnuchin 
said 2 days ago when he was asked a similar question. I mean, 
again, we put together a platform that we think has integrity 
and maintains, again, the taxpayer's--our fiscal responsibility 
to the taxpayer. We believe that we do not have the authority 
to all of a sudden deem a certain threshold where there would 
be a cutoff and that all those loans could be forgiven 
automatically.
    So, again, we believe that Congress has to act to come up 
with a threshold if you would like us to do that.
    Chairman CROW. Okay.
    Mr. Balderson, you are recognized for 5 minutes.
    Mr. BALDERSON. Thank you, Mr. Chairman.
    My first question, Mr. Manger, is, as you know, the SBA and 
Treasury guidance has remained critical for small businesses 
and lenders participating in PPP. Given that many small 
businesses are in the middle of the loan forgiveness process 
and given that we continue to hear that the process remains 
complex, does the SBA anticipate updating and providing new 
loan forgiveness guidance or FAQs on this matter?
    Mr. MANGER. Yes. You know, we provided, as I said in my 
opening statement, quite a lot of information in IFRs and 
actually 30 FAQs that pertain to forgiveness. We have developed 
two forms, the 3508 and the 3508EZ, for those businesses to use 
something of a similar but a simpler form for applying for 
forgiveness.
    We have, as I said, conducted lender outreach to over 
10,000 people on one call in the last couple of weeks alone. 
And we will continue to do that, and we will continue to offer 
as much guidance as possible to make it as easy as possible for 
borrowers and lenders to go through the forgiveness process.
    Mr. BALDERSON. Okay. Thank you for that answer.
    And my next question was regarding the E-Tran system, and I 
also had a question about that, but Mr. Chairman has addressed 
that issue.
    So I will go with, as the head of the Office of Capital 
Access and Chief of the Staff on the SBA, what do you believe 
are the biggest challenges when it comes to the PPP loan 
forgiveness for a small business, for a lender, and for the 
SBA?
    Mr. MANGER. That is a very good question, sir. Obviously, 
we need to make sure that what is being asked for is 
legitimate. We want to make sure that that small business that 
has come in for that loan is, in fact, an eligible small 
business, given the parameters and guidance of the program.
    So, again, we want to make sure that, you know, the 
borrower provides the information that they need to provide to 
the lender. It is then the lender that makes the decision on if 
the forgiveness should be what is asked for, possibly higher, 
possibly lower, but it is up to the lender to do that.
    And then the lender submits that application after 60 days 
or within 60 days to the SBA, and the SBA then has 90 days to 
review what has been submitted to us. And, again, we will make 
the decision as to what is the proper forgiveness amount and 
then pay that out to the lender.
    So it is a process that each party has to be involved with 
to make sure that they are submitting the correct data so that 
we can verify what is going to actually be paid out, based on, 
again, the small business retaining their employees at the 
level they had prior to the pandemic as well as any eligible, 
you know, interest, mortgage payments, or utilities.
    Mr. BALDERSON. Okay. From your perspective, what should 
Congress concentrate on as we seek to reopen and improve this 
process?
    Mr. MANGER. Well, again, I know that Chairman Chabot has 
language that is floating around Capitol Hill, and certainly I 
think there are some very good thoughts in there. And we would 
welcome, again, Congress helping to simplify the program even 
further if they so choose, and then we would certainly enact 
that as quickly as possible.
    I mean, when you gave us the CARES program and the PPP and 
specifically back in March, we really stood this program up in 
6 days, which is really quite incredible, the fact that then 
this program was able to make $525 billion available to U.S. 
small businesses and not-for-profits.
    Mr. BALDERSON. Thank you very much.
    Mr. Chairman, I yield back. Thank you.
    Chairman CROW. The gentleman yields back.
    I would now like to recognize the gentlelady from 
Pennsylvania, Ms. Houlahan, for 5 minutes.
    Ms. HOULAHAN. Thank you, Mr. Chair, and thank you very much 
for your testimony today.
    I want to kind of continue along the lines that Chairman 
Crow was asking you about, about the forgiveness that has been 
ongoing thus far. I had the opportunity to talk to a lot of the 
lenders in my community yesterday, who are really struggling 
right now because they are trying to get things through the 
pipeline in forgiveness, but are receiving a lot of error 
messages that a lot of the data is wrong, that they are ending 
up with a very, very small percent of what they submit being 
accepted the first time around.
    And they are really struggling with the technology, to be 
honest, of how to reconcile what they have on file and dates 
and those kind of things with what you are requiring them to 
do. So let's put that over here.
    They also are anticipating from Congress that we might do 
something in the forgiveness area. And so in many cases, they 
are counselling, and the CPAs are counselling, the borrowers to 
just hold on and wait.
    So we are creating this perfect storm where people can't 
get through a pipeline right now at all. They are being kind of 
coached and counseled to wait a little bit. And we are creating 
a demand signal or a backlog possibly that will create this 
tsunami, so to speak, of problems when and if we are able to 
create some sort of forgiveness program.
    I worry, because when we started the program, there was all 
kinds of technical issues and all kinds of glitches in the 
system. How are you preventing that from happening again when 
and if we are able to come to agreement on forgiveness?
    Mr. MANGER. No. Thank you very much, Congresswoman. Let me 
just explain to you that the platform that we are using for the 
forgiveness portion of the PPP program was actually a software 
as a service that the agency has purchased specifically for 
this purpose of forgiveness. So it is not actually the E-Tran 
system that will be doing the forgiveness process.
    We actually were able to retain an excellent, again, 
software as a service platform, a COTS platform, that we, you 
know, looked at, and it has been used by many lenders in this 
country as the forgiveness platform that they use.
    And so we have adopted that and worked very diligently with 
that team from that contractor to, again, modify what they had 
for our program. And it is a cloud-based program, so there are 
no capacity issues.
    Certainly, I am now hearing from you that there are some 
problems of inputting some information. I will go back and take 
a look at that, talk to the contractor about what may be 
happening there.
    But the system is a robust system that, again, as I said, 
has been used by many banks here in the country, and we have 
brought that on as a software as a service platform 
specifically for the forgiveness process.
    Ms. HOULAHAN. So I would like to provide you with some of 
that data, because from very small lenders to very large 
lenders, they all had experienced in my community the same 
problems in trying to push through forgiveness applications for 
right now in this very moment.
    And I just wanted to make sure I reiterated a question, 
with making sure that you felt as though you had enough 
resources for oversight and fraud detection, especially if 
there is a streamlined forgiveness for borrowers under 
$150,000.
    Do you feel as though you have a good enough process to 
protect and prevent against fraud?
    Mr. MANGER. Yeah. Let me just tell you a little bit about 
what we have done in our process here. We have brought on 
actually several contractors to help us. We have developed an 
automated tool that all loans will be run through. That 
verifies data that is publicly available through LexisNexis. 
That is the first stage.
    Then, when we see how the loan is doing after that, it will 
come to folks for manual review. I mentioned that we have 
brought on a total of 1,100 new folks to help do the manual 
reviews of the loans, and that is using contractors as well as 
SBA staff.
    So we have developed a very robust platform. We are using, 
again, several contractors. In fact, we even have another 
contractor that we brought on who is very well-known who will 
be doing quality assurance of the whole platform and seeing 
that from, you know, a 60,000-foot level, to make sure that 
what we are doing is, in fact, significant and appropriate.
    But we have layers that we have put into place to make sure 
that we will properly review these loans, properly provide the 
capital for the forgiveness.
    And so I think we have a very robust system that we have 
developed, again, working with top contractors as well as SBA 
staff to have that fully developed.
    Ms. HOULAHAN. Thank you. I will yield back, but I do look 
forward to connecting with you to give you some very specific 
examples of the issues that we are struggling with. So thank 
you.
    I yield back, Mr. Chair.
    Mr. MANGER. Thank you.
    Chairman CROW. The gentlelady yields back.
    I would now like to recognize the gentleman from Tennessee, 
Mr. Burchett, for 5 minutes.
    Mr. BURCHETT. Thank you, Mr. Chairman, I appreciate it. And 
I want to make sure. How do you pronounce your name? Is it 
Manger?
    Mr. MANGER. Manger, yes.
    Mr. BURCHETT. Manger. All right, cool. Thank you for being 
here, brother. Can you describe, you know, those reports that 
you all are receiving in more detail, and how many of those 
have you received thus far?
    Mr. MANGER. I am sorry, Congressman. Which reports are you 
referring to?
    Mr. BURCHETT. The loan reports. Well, in your testimony you 
said: ``Regardless of their value, SBA is reviewing loans when 
it receives reports that specific loans or borrowers do not 
meet program requirements or otherwise may be ineligible.''
    Mr. MANGER. Oh, yes. We have received quite a few reports. 
And if you add up all the loans that then have been, you know, 
identified as having some indicia of a problem with program 
compliance, you know, it is in the, you know, tens of thousands 
of loans.
    But we are obviously tracking that, and that not a static 
number. It is a dynamic number. Certainly, as we are made aware 
of any, again, reports of issues with certain loans, we then 
look into that and we make sure that we are addressing that.
    Mr. BURCHETT. Okay. We have heard from several small 
businesses and lenders that the PPP loan forgiveness process 
remains complicated. And I know we are all trying to make 
improvements, but what changes would you recommend to Congress 
as it pertains to PPP loan forgiveness?
    Mr. MANGER. Well, again, sir, you know, we have tried to 
make the process as simple as possible, again, weighing our 
fiscal responsibility and duty to the taxpayer to make sure 
that any time we are paying out funds for forgiveness, they are 
legitimate, accurate funds and that the program has integrity.
    So that is what we have been doing.
    Mr. BURCHETT. I appreciate that, but what I would just like 
to know is, what would you recommend we do to make it better?
    Mr. MANGER. Well, again, you know, I know Congressman 
Chabot has some language that says that, you know, on his bill, 
talking about having a threshold below which the review process 
would really be just basically a certification on the part of 
the small business. Certainly, we would be willing to take a 
look at that, and if that becomes law, that is what we will 
implement right away.
    Mr. BURCHETT. Well, just pretend it is just me and you 
talking in an off-the-record conversation brother. I don't need 
all this Washington talk. I just want to know what the heck we 
can do to make it better. And I think you have expressed that, 
but you really haven't.
    Mr. MANGER. No, I understand, Congressman. Again, we just 
want to make sure that whatever we do, we are being, obviously, 
responsible to the taxpayer. These are taxpayer dollars that we 
will be paying out to these lenders for the borrowers, and we 
want to make sure that it is done with integrity and 
legitimacy.
    But we will do, again, whatever we can to make it as easy 
and simple as possible.
    Mr. BURCHETT. I dig all that. But what I am worried about 
is we get 6 months out and we have really messed it up, because 
you all are afraid to tell us, because some powerful lawmaker 
has tried to put something on the books that looks good, but 
we, being neophytes, that we wouldn't understand what the heck 
we were doing and we just created a problem that the grifters 
and everybody else can advance their cause on.
    And I would appreciate letting us know, as we say in east 
Tennessee, closing the barn door before the cows got out.
    Mr. MANGER. Congressman, I look forward to working very, 
very closely with you.
    Mr. BURCHETT. All right. You are very polished, sir. I 
appreciate that. You ought to be on TV or something, I don't 
know.
    Well, tell me about the partnership you all have--and just 
dadgum, just tell me about the partnership, I don't need the 
polished answer, all right?--with the Department of Treasury 
that you all developed over the--you know, within this working 
relationship. How will that help in the forgiveness process?
    Mr. MANGER. Well, we have worked very closely since 
inception of the program with Treasury to ensure that it was 
developed properly and with as many safeguards as possible. And 
so we have developed an excellent working relationship with 
Treasury. We speak, you know, several times a day, in fact. And 
that has worked very well.
    They have given us suggestions for the forgiveness. We have 
worked with them and made our own suggestions. And I think we 
have actually come up with a very good process.
    We probably need to do a little more education on the side 
of educating the borrowers and the lenders to make sure they 
know exactly how to go about seeking the forgiveness.
    Mr. BURCHETT. Can you do that in a noncomplicated manner?
    Mr. MANGER. Sir, I pledge to you we will try and be as 
simplified as possible to make sure that----
    Mr. BURCHETT. I appreciate that.
    Mr. MANGER.--everybody can take advantage of this in the 
easiest way possible.
    Mr. BURCHETT. Brother, next time I get in trouble with my 
wife, I would appreciate you just giving me your cell phone 
number. I am just going to hand it over to you and you smooth 
that road out for me, all right?
    Mr. MANGER. Thank you, sir. I appreciate that.
    Mr. BURCHETT. Thank you, brother.
    And my wife watches these hearings and I haven't done 
anything to get myself in trouble with her. I just want you to 
know that.
    Mr. MANGER. No. And I remember, Congressman, the first time 
you introduced yourself, my name is Burchett, birch like the 
tree and et like I just ate my breakfast. So anyway, I 
appreciate that.
    Mr. BURCHETT. Thank you, brother.
    Chairman CROW. Does the gentleman yield back?
    Mr. BURCHETT. I do, Mr. Chair.
    Chairman CROW. All right. Thank you, Mr. Burchett.
    And notwithstanding your good faith efforts to try to get 
an answer to our question, I appreciate you taking another cut 
at it.
    And at some point, I would like Mr. Manger to actually help 
us help you. That is the point of this question is to have a 
collaborative relationship so that we can make better law and 
policy here so you can implement it. But if you are not going 
to give us your thoughts on how we improve the forgiveness 
process, it makes it much harder for us to do that.
    I would now like to recognize the gentlelady from Kansas, 
Ms. Davids, for 5 minutes.
    Ms. DAVIDS. Thank you, Mr. Chair. And thanks to you and to 
Ranking Member Balderson for holding this important hearing 
today.
    The Paycheck Protection Program has certainly been a vital 
lifeline for so many businesses in the Kansas Third District 
during the pandemic, and the possibility of loan forgiveness is 
certainly an important component of that.
    We know that the pandemic is far from over, and that even 
as our economy has started to reopen there are a lot of small 
businesses in Kansas that are still struggling to open their 
doors, which is why----
    Chairman CROW. Ms. Davids, we can't hear you on the audio. 
You might want to try--all right one moment while we work 
through this with Ms. Davids. Ms. Davids, we couldn't hear your 
question. Your audio has cut out.
    Well, while we work out her audio, let's move on to the 
next member.
    I would now like to recognize the gentleman from 
Pennsylvania, Dr. Joyce, for 5 minutes.
    Mr. JOYCE. Thank you, Chairman, and thank you, Ranking 
Member Balderson, for organizing this today.
    Mr. Manger, thanks for joining us. I think this is very 
important, and I actually think it is a very critical time. On 
behalf of my district, I am going to offer thanks to you and 
your office for your hard work to iron out what we all know 
were initial glitches in the E-Tran system.
    Since PPP opened, my home State of Pennsylvania has 
received more than 170,000 loans, which brought in more than 
$20 billion for hardworking small business owners, their 
employees, and particularly their families.
    I recently visited Boyer's Orchard in New Paris, which is 
Bedford County, Pennsylvania, to purchase some of their 
incredible apples. And while I was there, I met with the Boyer 
family, Penn State alumni who used the PPP to make ends meet. 
In discussions with them, they described the program as, quote, 
``a godsend.''
    However, we all recognize in this room that many small 
businesses are still struggling to stay afloat. And, as 
mentioned, there is more than $130 billion remaining in the 
Paycheck Protection Program that concluded, as you pointed out, 
in early August.
    Our Ranking Member, Mr. Chabot, has introduced legislation 
to reopen this much-needed PPP access and allow these 
desperately needed funds to be expended and pursued for the 
small businesses to once again be the backbone of our 
community, which we all know they are.
    Mr. Manger, my question is really simple. If Congress were 
to reauthorize the Paycheck Protection Program, as I and my 
colleagues are fighting tirelessly to do so, how quickly could 
SBA begin processing the new applications?
    Mr. MANGER. Sir, it would be very simple. Since the program 
and the platform has already been built, it would really be as 
easy as just flipping a switch and turning E-Tran back on.
    So it would be done probably within a matter of a day, 
quite honestly. We would obviously--you know, as you said, the 
money has been put aside, so it would be really very simple for 
the agency to turn the electronic transmission system back on.
    Mr. JOYCE. So by flipping that switch, which you so 
eloquently state, and in one day allowing those resources to be 
available, how quickly could the money get into the hands of 
the small businesses?
    Mr. MANGER. Well, sir, that is, again, up to the lenders 
for making the disbursement. We provide a loan number to the 
lender. They are making the loans on a delegated basis on 
behalf of the agency. So, again, the disbursements would happen 
as quickly as the bank is able to get that money out the door. 
You know, a matter of days, probably.
    Mr. JOYCE. And finally, do you feel that the extension of 
the PPP is part of your job at SBA in getting us through this 
pandemic?
    Mr. MANGER. Sir, I think the numbers speak for themselves, 
the fact that we have been able to help over 5 million 
businesses and not-for-profits with, again, over $525 billion. 
And when you see the number of lenders that joined with us to 
make the program available to U.S. small businesses, I mean, 
they were doing their patriotic duty, coming to the rescue and 
making sure that they could get money to these small 
businesses.
    And we want to completely support that. And if you 
authorize us to reopen a platform, we will do that, as I said, 
very quickly. We will flip that switch, and we will make sure 
that the money flows again out to the small businesses.
    Mr. JOYCE. Thank you for your concise answers, and I 
conclude by encouraging all of my colleagues, bipartisan, to 
work together to allow for an extension of the PPP. Thank you 
for being here today.
    And I yield the remainder of my time.
    Mr. MANGER. Thank you, sir.
    Chairman CROW. Thank you. The gentleman yields.
    We are going to go back to the gentlelady from Kansas, Ms. 
Davids, and see if she has worked out the audio on her end. Ms. 
Davids, are you on?
    Ms. DAVIDS. Yes, Chairman. Can you hear me?
    Chairman CROW. We can hear you. All right. The gentlelady 
has 5 minutes.
    Ms. DAVIDS. Perfect. Thank you so much. And thank you, Mr. 
Ranking Member Balderson, for holding this hearing today.
    So I do want to get into the question that I wanted to ask, 
and just in case we have any technical difficulties again. You 
know, the Paycheck Protection Program has obviously been a 
vital lifeline for so many businesses in the Kansas Third and 
across Kansas.
    And I just want to get into the balance that we have been 
talking about and hearing about when it comes to balancing 
accountability with the need to make the process simple and 
effective and available for our smallest borrowers, who have 
the fewest financial administrative resources.
    So, Mr. Manger, can you talk to us about the Government 
Accountability Office report that came out this week that cited 
a much longer standard application time than the SBA had 
previously cited? It seems that there is a discrepancy there, 
and I would welcome your explanation for the discrepancy for 
both the standard form and the EZ form.
    Mr. MANGER. Yeah. I have to admit that I have not seen the 
GAO report that you are referring to specifically, but, again, 
we made our best estimate as to what it would take, again, to 
completely fill out both the 3508 and the 3508EZ forms.
    And, again, we had the first--the 3508 form was launched on 
May 15, and then the EZ platform form was launched on June 17, 
again. And we did that so that we could simplify the process, 
especially for sole proprietors, independent contractors and, 
you know, self-employed.
    So I think, again, the process has been simplified to a 
great extent and, again, to balance, again, the integrity of 
the program and to ensure, you know, the fiscal responsibility 
to the taxpayer. And, again, we did our best estimate of what 
that time would take to properly fill out the form and complete 
that and make sure that all of the necessary documents are 
available for review.
    And, again, the lender makes their decision and then it 
comes to us for our decision. But, again, we tried to make it 
as simple as possible, maintaining, again, integrity of the 
system, fiscal responsibility to the taxpayer, and, again, our 
best estimate of what that time would take to get that done.
    Ms. DAVIDS. So can you talk to us a little bit about the--
you know, when we talk about the challenges or risks, and 
certainly you have brought up the risks to the--you know, how 
we allocate and use and make use of the taxpayer funds.
    Can you talk to us a little bit about the risks that you 
are concerned about through the further simplification of this 
process? Because that is something that you have brought up 
multiple times during this conversation is the stewardship, you 
know, the fiduciary responsibility you have to the taxpayer. 
Can you talk to us about what risks you all are thinking about 
and trying to mitigate?
    Mr. MANGER. Sure. Well, let me just go back and briefly 
describe how this program was structured. As you know, the 
borrower came in and basically on a----
    Ms. DAVIDS. I am sorry. You don't have to re-explain the 
structure of the program. I have been in this hearing and 
paying very close attention to how things are going. I am just 
more concerned about which--if you could tell us the specific 
risks that you are trying to mitigate.
    Mr. MANGER. Well, again, I would like to just say, though, 
that, again, the borrower was certifying to the information 
that was being put into the application. The lender was not, 
you know, going back and checking and verifying that 
information. The lender was merely, on a delegated basis, as I 
said previously, making these loans so that, again, we could 
get capital out to these small businesses that were in dire 
need.
    So it is very different than our regular program. For that 
reason, we need to make sure that we are--that the small 
business that actually applied for the loan and received a loan 
is, in fact, eligible, that there is not any indicia of any 
issues that could be revolving around, again, the program 
requirements, that they have fulfilled the program requirements 
as spelled out in the IFRs.
    And, again, it is just the necessity to ensure that 
everything was followed properly so that we can, in fact, 
provide the capital to the lender when that forgiveness 
application is submitted to us.
    Ms. DAVIDS. Thank you. And I see I am short on time here, 
so my office will follow up with you about the discrepancy 
between the GAO report. And I appreciate your testimony today.
    And I yield back, Mr. Chairman.
    Chairman CROW. The gentlelady yields back.
    I would now like to recognize the gentleman from Oklahoma, 
Mr. Hern, for 5 minutes.
    Mr. HERN. Thank you, Mr. Chairman, Ranking Member 
Balderson. It is great to be here. Mr. Manger, thanks for being 
here again.
    As a small business owner for over 35 years and the Ranking 
Member of the Small Business Committee on Economic Growth, Tax 
and Capital Access, I understand the need for businesses to 
obtain the adequate funding to support their operations, 
especially during these unprecedented times.
    One way in which we have been able to provide funding is 
through the PPP. Through this program, the SBA worked quickly 
to provide aid to businesses across the country, and I 
appreciate your efforts in the speedy implementation. Remind us 
all the PPP program saved approximately 51 million American 
jobs. We know now that it may be even higher than that.
    At the same time, our bankers across the country played a 
crucial role in the PPP implementation, putting in countless 
hours to provide local business owners with loans. Without the 
hard work of our banking industry, the PPP would not have been 
a success, as we have seen today, and I commend them for their 
efforts.
    However, the urgency to roll out PPP also caused the SBA to 
overlook certain obstacles for lenders, such as the outdated 
loan processing system known as E-Tran. Unfortunately, this 
system could not sustain the incredible influx of PPP loan 
applications and which caused burdensome tech-related issues 
for our many lenders, who were working overtime to help 
borrowers obtain funding.
    As the founder of a small community bank, I understand how 
these obstacles can impact lending productivity. This was a 
waste of viable business hours, and we must do better to help 
our lenders navigate the PPP-related portals.
    Additionally, we need to provide more comprehensive 
guidance to explain how certain processes work, especially with 
loan forgiveness for both borrowers and lenders. Right now, 
there is an ambiguity and a confusion surrounding loan 
forgiveness, which has caused banks to advocate for automatic 
forgiveness for certain thresholds in order to mitigate the 
lack of clarity about this process.
    I for one am concerned about automatic forgiveness without 
oversight. I think there is a responsibility that this 
committee and all of us in Congress have to have oversight to 
make sure there is no fraud. So we have to get this figured out 
sooner rather than later.
    Currently, many lenders are left in the dark on how loan 
forgiveness will be rolled out, both on the technology side and 
the policy side, which brings me to my first question.
    When the PPP was first rolled out, New Interim Final Rules 
were frequently posted on SBA's website. This created confusion 
for both borrowers and lenders, since rules were constantly 
changing. Because of this, we advocated for SBA to release a 
comprehensive guide--I am sorry. We advocated for you to do 
this on the PPP, to create transparency and help individuals 
navigate the program.
    So my question is: Does the SBA have any plans to provide a 
comprehensive guide to help lenders navigate the loan 
forgiveness program process, including the new online portal?
    Mr. MANGER. Congressman, we can certainly take a look at 
that. What we have done specifically related to forgiveness is 
we released three IFRs and, again, detailed FAQs. I believe 
there were 30 in all that specifically addressed the loan 
forgiveness process. And we did that because, again, they are 
frequently asked questions, so we wanted to try and capture 
what, again, the borrower and the lender really needed to 
understand the forgiveness process.
    So we have done that thus far, and we are obviously trying 
to do more. And we can certainly take a look at, you know, a 
document such as you have just expressed here.
    But at this point, again, we believe the IFRs and the FAQs 
and the forms and our outreach that we have been conducting has 
been very, very helpful. And, you know, certainly we can always 
do more, but we can take a look at anything else you would like 
us to.
    Mr. HERN. Well, I think, in talking to many bankers 
certainly across my district and the State, their concern is 
not knowing the rules until after they are required to do 
something. As an example, we relied heavily, almost exclusively 
on our community banks--certainly, they touch all of our small 
businesses across America--in addition to our big lenders.
    But what we also know is they had to use their own loan 
documents, which required at that time a 6-month deferral until 
the first payment, which are coming due. And now they have a 
loan forgiveness document that says it is not until 10 months 
after the SBA gives guidance on forgiveness.
    So they have to go back and touch all of their documents 
now to either put an addendum, because if they don't they are 
out of compliance with the Office of the Comptroller of the 
Currency or the other State and Federal regulators, which is 
creating a real burden and a financial cost to them that there 
is no additional fees for, or there are none.
    And so this is important for the banks to be able to touch 
these documents one time, so that we can alert our borrowers to 
if there is going to be any forgiveness at all. But we need to 
do this as a respect to the people that we put the burden on to 
go loan this money to the individual businesses so that they 
could keep the 51 million Americans employed.
    So, with that, Mr. Chairman, I yield back, and thank you so 
much for having this hearing.
    Chairman CROW. Thank you, Mr. Hern. I appreciate your 
questions. The gentleman yields back.
    I am going to just do a second round. I don't think there 
are many members with additional questions, but I will start 
with myself, and if others have questions we will go to those.
    A few other items I wanted to cover, Mr. Manger. One is--
and I think you touched on this one earlier--the new platform 
for the forgiveness system. That is the private software system 
that is cloud-based. Is that accurate?
    Mr. MANGER. That is correct. It was a, you know, off-the-
shelf platform that we identified in Capital Access that we 
could use that is used by many lenders in their own, you know, 
work, and that we could adopt that as a software as a service 
platform specifically for the forgiveness portion of the PPP. 
And that has been very effective, and the team has done a great 
job working with us to adjust it so that it can be seamlessly 
integrated with the PPP.
    Chairman CROW. So to date, it seems to be running smoothly, 
from your perspective? You are not seeing any bugs or anything?
    Mr. MANGER. We have not seen any problems. And, in fact, as 
I mentioned early on, 98 percent--sorry, 98 percent of the 
lenders have already signed up onto that platform. So we have 
had, you know, again, almost 100 percent have already signed up 
onto that platform.
    Chairman CROW. Okay. Of the 5,000-plus, you mean?
    Mr. MANGER. Of the almost 5,500 lenders, we have 98 percent 
that have signed up on the platform, yes.
    Chairman CROW. Okay. So I think it launched in mid-August, 
right? That is----
    Mr. MANGER. It was launched August 10.
    Chairman CROW. August 10, okay. How many forgiveness 
applications have you received since----
    Mr. MANGER. So to date, we are at about 96,000.
    Chairman CROW. Okay.
    Mr. MANGER. Just over 96,000.
    Chairman CROW. And has the SBA declined any of those 
applications?
    Mr. MANGER. No, not at this point. We are in the process of 
the review stage. So we have not declined any at this point.
    Chairman CROW. So 96,000 received. How many have been 
approved, roughly?
    Mr. MANGER. At this point, we are still going through the 
review process, and none of those have been, you know, approved 
fully.
    Chairman CROW. Can you just give us a sense as to what you 
expect the timeframe to be from the acceptance of a forgiveness 
application to when you make a determination on an application?
    Mr. MANGER. Sure. Sure. As you know, again, the lender 
first receives the forgiveness request from the borrower. The 
lender at that point has 60 days with which to make their 
decision. They have to review the documents in-house. And then 
they come to the SBA and say, we are requesting this of the 
SBA, to remit this amount to us, the lender, for the 
forgiveness of this small business borrower.
    At that point, when they submit the request to us, the SBA 
has 90 days in which to review that and make a decision on the 
forgiveness. So we have up to 90 days to make that decision, 
sir.
    Chairman CROW. Okay. And I don't think I need to encourage 
you to obviously compress that timeline, because if Congress is 
able to work out a deal for extension or a second round, 
obviously, people aren't going to go for that unless they 
already have the determination in hand from their prior round. 
So I think it will just set everyone up for better success 
here, and I appreciate your efforts in that regard.
    One of the things, the last question is kind of a customer 
service issue that we have heard about, and that is--and this 
is something that I think we can all sympathize with. When you 
call like an insurance company or something and you go through 
the phone tree, and then every time they ask you for the same 
information, right? And you are like, well, isn't anyone 
capturing this information? The same thing seems to be 
happening here, where people are going into the forgiveness 
portal, have to reenter all the information that they entered 
when they first applied for the loan.
    So isn't there a way to migrate that data to the new portal 
so that it is already there, and we can save folks time and 
make it easier for them?
    Mr. MANGER. Well, sir, I understand your point. The thing 
is, what was captured initially in the two-page application 
from a borrower with the self-certifications tells at the time, 
you know, what they had on board for employees, for example. 
The fact is, over the covered period, that number may have 
changed. And we can only give----
    Chairman CROW. I guess I am not asking for that 
information. I mean, I understand that some information will 
change----
    Mr. MANGER. Yeah.
    Chairman CROW.--and the conditions will be different, and 
there will be new information that is necessary for forgiveness 
that didn't apply for the original loan.
    But some of the basic information, right, about the company 
and things like that, like, can't we just auto-populate that 
into the new system? I am just always looking for ways to make 
this easier for the businesses.
    Mr. MANGER. No, and I appreciate that. We can certainly--I 
will take that back and talk to the IT folks and see again 
about integrating the information that came into E-Tran with 
the information that is being captured on the SaaS platform.
    Chairman CROW. I appreciate that. Thank you.
    Now I would like to go back and recognize the gentleman 
from Oklahoma for an additional 5 minutes. Mr. Hern.
    Mr. HERN. Thank you, Mr. Chairman. I really appreciate 
those comments you made there too because, as we are all 
hearing from our businesses, it is about simplicity in the time 
of trying to figure out how to keep people employed.
    Mr. Manger, currently under the PPP, if a change of 
borrower occurs, it is an automatic default unless the borrower 
obtains a written waiver from the lender. As you know, the 7(a) 
program requires lenders to get SBA consent for a borrower 
change of control. And if you are selling a business or a 
transition of ownership, we have an issue here that we need to 
get clarified and maybe bring some consistency between the two 
programs.
    Because of some preexisting 7(a) rules applied to the PPP, 
as long as they are consistent, will PPP borrowers need to get 
SBA consent for a change of borrower?
    Mr. MANGER. So, Congressman, I appreciate that question 
very much. And, in fact, I was on the phone last night with one 
of my colleagues discussing just that. I have actually been on 
a phone call with Congressman Balderson where he also asked the 
question about change of ownership for businesses that 
currently have a PPP loan.
    We are working through that, and we are coming up with 
something I think that will make it much easier, again, for a 
business with a PPP loan to be able to have a change of 
ownership.
    So we are very near completion on that as we speak. As I 
said, I was on the phone last night discussing that with one of 
my colleagues.
    Mr. HERN. Have you thought through the process or 
additionally--and I will go back to what the Chairman said, 
communication is paramount here, it is critical--have you 
thought how you would communicate to both lenders and borrowers 
this change this consistency?
    Mr. MANGER. We will certainly work with our office of 
communications and public liaison. We will certainly reach out 
to the banking trade associations. And we will again try to get 
out the information out on our website and all the other means 
possible to make sure that they are aware of how they can make 
a change of ownership.
    Mr. HERN. Mr. Manger, I want you to know from me personally 
as a small-business owner for years, that we appreciate and 
whether you are a Democrat or a Republican on this committee, 
we have heard from borrowers, all over this country and they 
appreciate it. And while there has been a lot of uncertainty in 
how the process works, they appreciate.
    This program has saved thousands, hundreds of thousands of 
mom and pop businesses that may have been handed down by 
generations, people who took the risk, borrowed capital, 
started a business that without this program would have gone 
bankrupt and many still will just because of the demand for 
their product.
    And without the SBA utilizing the banking system, other 
financial systems to get these moneys out, this could have been 
a catastrophic event. It was already catastrophic enough for 
our economy, but because of what you did, you allowed the 
people to keep all of our Americans for the most part employed 
where you could.
    And we greatly appreciate all of the work for you and your 
teams consistently coming over here. We want to make sure that 
message gets back to Administrator Carranza as well Secretary 
Mnuchin. He has been here and you guys have been very open to 
come in and testifying before us. And we greatly appreciate you 
taking our questions and going back to work fervently on 
solutions.
    So thank you so much for being here.
    Mr. MANGER. Thank you, Congressman very much. I appreciate 
that.
    Mr. HERN. I yield back Mr. Chairman.
    Mr. CROW. Thank you. The gentleman yields back. I would 
like to recognize the Ranking Member Mr. Balderson for 5 
minutes.
    Mr. BALDERSON. Mr. Manger, I wasn't going to go further, 
but since you brought my name up and you brought that phone 
call up, when are you thinking about having release for this 
guidance because about our phone call was back in July?
    Mr. MANGER. I understand, sir.
    Mr. BALDERSON. At the end of July. And I do have several 
too actually.
    Mr. MANGER. I was actually hoping, Congressman, that I 
would be able to have it here this morning. Unfortunately as I 
was on the phone last night about it, but it is going to be 
imminent, imminent.
    Mr. BALDERSON. Okay. Thank you.
    Mr. Chairman, I yield back.
    Mr. CROW. The gentleman yields back. So are there any other 
members with additional questions? Online? I am not seeing any.
    Okay. So I want to thank Mr. Manger for your testimony 
today on the PPP program, and the data inaccuracies, and 
discussing the various issues around loan forgiveness.
    First off, I do want to echo my colleagues' sentiments and 
reiterate what I said in the beginning, I recognize this was a 
very heavily lift. There was no precedence for this. You were 
having to build the airplane inflight and you turned around 
very quickly.
    And I do appreciate the hard work and the efforts of you 
and your team in doing that, because it did make a difference, 
a very big difference.
    And in Colorado alone our estimates are that the PPP 
program helped preserve over a half million jobs. So it 
certainly made a difference.
    With that said, our job is not to pat each other on the 
back. Our job is to figure out how we can make things better 
and improve. And there is always improvements. And of course we 
serve as the direct conduit from our constituents our 
businesses to the SBA. And that is why we press you on these 
things, because there are ways to improve it and make it better 
and we want to work with you to do so.
    I also want to reiterate that it has been, I think, over 
131 days since the House passed The HEROES Act, which provided 
an extension of these value programs and money to address the 
ongoing concerns of businesses.
    And I do recognize and appreciate Mr. Chabot's efforts to 
introduce a bill. I know my colleagues on the other side have 
issues with the HEROES Act, and we obviously have issues with 
Mr. Chabot's bill. There has got to be a solution where we can 
all get behind and figure out that everyone can live with where 
we can do this.
    So I am going to continue to work with my friends on the 
other side of the aisle here to figure this out and push hard 
because we obviously owe that to the American people and to the 
businesses that are struggling it to survive. And that is what 
they expect of all of us. So we will at this point to work 
hashed to figure out that solution.
    So with that, I think we just have the technicalities left. 
So I would ask unanimous consent that Members have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, so ordered.
    And if there is no further business to come before the 
committee, we are adjourned.
    Thank you.
    [Whereupon, at 11:05 a.m., the subcommittee was adjourned.]
    [Mr. William Manger did not submit his Responses to 
Questions in a timely manner.]

                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
